No. 20-1019
IN THE

Supreme Court of the United States
_________
JADE THOMPSON,
Petitioner,
v.
MARIETTA EDUCATION ASSOCIATION ET AL.,
Respondents.
_________
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit
_________
CERTIFICATE OF SERVICE
_________
I, William Messenger, a member of the bar of this Court, certify that on February 25,
2021, I emailed a copy of the Amicus Curiae Brief of the National Right to Work Legal
Defense Foundation in the above titled matter to all parties required to be served,
who are listed below and who consented to electronic service only, pursuant to this
Court’s order of April 15, 2020:
Andrew Michael Grossman
agrossman@bakerlaw.com
Counsel for Petitioner

Nicole Marie Donovsky
ndonovsky@bricker.com
Counsel for Respondent Marietta School
District Board of Education

Scott Kronland
skronland@altshulerberzon.com
Counsel for Respondent Marietta Education Association
Executed on February 25, 2021.
/s/ William L. Messenger
William L. Messenger
Counsel of Record
c/o National Right to Work Legal Defense
Foundation, Inc.
8001 Braddock Road Suite 600
Springfield, VA 22160
(703) 321-8510
wlm@nrtw.org
Counsel for Petitioner

